U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

October 20, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Savannah Rolle v. United States, No. 20-5499
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 21,
2020. The government’s response is now due, after one extension, on October 26, 2020. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including October 30, 2020, within which to file a response.
This short extension is necessary because, in light of COVID-19, this Office is
endeavoring to minimize risks to the health and safety of our personnel responsible for the filing
and service of paper copies of Court documents by reducing the number of days each week on
which the filing and service of such documents are necessary and on which those personnel must
report to work in person.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

20-5499
ROLLE, SAVANNAH
USA

CONRAD BENJAMIN KAHN
FEDERAL DEFENDER ATTORNEY
201 S. ORANGE AVE.
STE 300
ORLANDO, FL 32801
407-648-6338
CONRAD_KAHN@FD.ORG

